   Report No. D-2010-075            August 17, 2010




Foreign Allowances and Differentials Paid to DOD Civilian
Employees Supporting Overseas Contingency Operations
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DCPDS                         Defense Civilian Personnel Data System
DCPS                          Defense Civilian Pay System
DFAS                          Defense Finance and Accounting Service
DOD FMR                       DOD Financial Management Regulation
DSSR                          Department of State Standardized Regulations
DUSD(CPP)                     Deputy Under Secretary of Defense for Civilian
                                 Personnel Policy
HRO                           Human Resources Office
ODUSD(CPP)                    Office of the Deputy Under Secretary of Defense for
                                Civilian Personnel Policy
OUSD(C)/CFO                   Office of the Under Secretary of Defense (Comptroller)/
                                Chief Financial Officer
                               INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                            AR LIN GTON, VIRG INIA 22202-4704

                                                                          August 17,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READlNESS
               DIRECTOR, DEFENSE FlNANCE AND ACCOUNTlNG
                 SERVICE

SUBJECT: Foreign Allowances and Differentials Paid to DOD Civilian Emp loyees
         Supporting Overseas Contingency Operations
        (Report No . D-2010-075)

We are providing this report for review and COlmnent. We considered comments from
the Defense Finance and Accounting Service when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments of the Director, Standards and Compliance, Defense Finance and Accounting
Service, were responsive. However, the Deputy Under Secretary of Defense for Civilian
Personnel Policy, Office of the Under Secretary of Defense for Personnel and Readiness,
did not respond to the draft report. Therefore, we request comments on
Recommendations 1.a, 1.b, and1.c by September 17,20 10 .

Please provide comments that conform to the requirements of DOD Directive 765 0. 3. If
possi ble, send management conunents in electronic format (Adobe Acrobat file only) to
audclev@dodig.mi l. Copies of management comments must have the actual signature of
the authorizing official for your organization. We cannot accept the /Signed/ symbol in
place of the actual signature. If you arrange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.



                                             po:tw~D--)         Q,   mCLwlv
                                             Patricia A Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-075 (Project No. D2009-D000FC-0199.000)                    August 17, 2010


               Results in Brief: Foreign Allowances and
               Differentials Paid to DOD Civilian Employees
               Supporting Overseas
               Contingency Operations

What We Did                                             What We Recommend
Our overall objective was to determine whether          The DUSD(CPP) should:
civilian pay for overseas contingency operations           • Finalize and issue uniform DOD-wide
was disbursed in accordance with established                  policies and procedures to accurately
laws and regulations. Specifically, we                        and consistently authorize foreign
determined whether eligible DOD civilian                      allowances and differentials.
employees were properly paid foreign                       • Direct the DOD Components’ HROs to
allowances and differentials.                                 review all foreign allowances and
                                                              differentials paid since FY 2007, to
What We Found                                                 identify inaccuracies and provide
DOD Components’ Human Resources Offices                       corrected authorizations to the Defense
(HROs) authorized inaccurate foreign                          Finance and Accounting Service for pay
allowances and differentials to a projected 8,686             adjustments, as appropriate.
of 11,691 DOD civilian employees supporting                • Conduct periodic quality assurance
overseas contingency operations. This occurred                reviews, to ensure that the DOD
because the Office of the Deputy Under                        Components’ HROs are accurately and
Secretary of Defense for Civilian Personnel                   consistently authorizing foreign
Policy (ODUSD[CPP]) did not provide uniform                   allowances and differentials.
guidance to the DOD Components’ HROs to
accurately and consistently authorize foreign           The Director, DFAS, should take appropriate
allowances and differentials. In addition, the          corrective action to reimburse or recover
ODUSD(CPP) did not monitor DOD                          improper foreign allowances and differentials
Components’ HROs to ensure proper                       payments identified by the ODUSD(CPP) and
implementation and effectiveness of the DOD             DOD Components’ HROs.
foreign allowances and differentials program.
As a result, the Defense Finance and                    Management Comments and
Accounting Service (DFAS) potentially made              Our Response
improper foreign allowances and differentials
                                                        The Director, Standards and Compliance,
payments totaling a projected $57.7 million to
                                                        DFAS, comments were responsive. The
DOD civilian employees supporting overseas
                                                        DUSD(CPP) did not respond to the draft report.
contingency operations.
                                                        We request that the DUSD(CPP) provide
                                                        comments on the final report by September 17,
                                                        2010. Please see the recommendations table on
                                                        the back of this page.




                                                    i
Report No. D-2010-075 (Project No. D2009-D000FC-0199.000)            August 17, 2010

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Deputy Under Secretary of        1.a, 1.b, 1.c
Defense for Civilian Personnel
Policy, Office of the Under
Secretary of Defense for
Personnel and Readiness
Director, Defense Finance and                               2
Accounting Service


Please provide comments by September 17, 2010.




                                          ii
Table of Contents

Introduction                                                     1

      Objective                                                  1
      Background                                                 1
      Review of Internal Controls                                3

Finding. Authorization of Foreign Allowances and Differentials   4

      Recommendations, Management Comments, and Our Response     7
      Management Comments Required                               7
      Other Matters of Interest                                  8
      Management Actions                                         8

Appendices

      A. Scope and Methodology                                    9
             Prior Coverage                                      12
      B. Definitions of Foreign Allowances and Differentials     14
      C. Statistical Sample                                      15

Management Comments

      Defense Finance and Accounting Service                     17
Introduction
Objective
Our overall objective was to determine whether civilian pay for overseas contingency
operations was disbursed in accordance with established laws and regulations.
Specifically, we determined whether eligible DOD civilian employees were properly paid
foreign allowances and differentials. The Defense Finance and Accounting Service
(DFAS) paid an estimated $212.9 million in foreign allowances and differentials to
11,691 DOD civilian employees supporting overseas contingency operations during
FYs 2007 and 2008. See Appendix A for a discussion of the scope and methodology
related to the objective.

Background
Allowances and differentials are recruitment incentives for DOD civilian employees to
accept assignments in foreign locations. The Office of Allowances, U.S. Department of
State, administers the Federal Government foreign allowances and differentials program.
Specifically, the Office of Allowances established the Department of State Standardized
Regulations (DSSR), which governs allowances and differentials available to Federal
civilian employees assigned to foreign locations. The DSSR authorizes 17 different types
of allowances and differentials.1 DOD Instruction 1400.25, volume 1250, “DOD Civilian
Personnel Management System: Overseas Allowances and Differentials,” July 31, 2009,2
authorizes all of these allowances and differentials for DOD civilian employees except
portions of the foreign transfer allowance, the home service transfer allowance, and the
education allowance. 3

DOD civilian employees are not automatically granted foreign allowances and
differentials when they meet eligibility requirements. DOD Components must consider
the recruitment need and the expense each DOD Component will incur. During FYs
2007 and 2008, DOD Components approved eight types of foreign allowances and
differentials for DOD civilian employees supporting overseas contingency operations:
danger pay allowance, difficult-to-staff incentive differential, portions of the foreign
transfer allowance, living quarters allowance, post allowance, post hardship differential,
separate maintenance allowance, and temporary quarters subsistence allowance (see
Appendix B for definitions).



1
  The DSSR authorizes advance of pay, danger pay allowance, difficult-to-staff incentive differential,
education allowance, educational travel, evacuation-related payments, extraordinary quarters allowance,
foreign transfer allowance, foreign travel per diem allowance, home service transfer allowance, living
quarters allowance, post allowance, post hardship differential, official residence expense allowance,
representation allowance, separate maintenance allowance, and temporary quarters subsistence allowance.
2
  DOD Instruction 1400.25, volume 1250, was issued in December 1996. DOD administratively reissued
this instruction on July 31, 2009.
3
  DOD civilian employees are not authorized the wardrobe portion of the foreign transfer allowance or the
home service transfer allowance. The educational travel allowance may be authorized.


                                                    1
DOD Components’ Human Resources Office Process
DOD Components’ local and regional Human Resources Offices (HROs) provide
comprehensive support to deploying DOD civilian employees supporting overseas
contingency operations. Each DOD Component has a large number of local HROs. The
local HROs serve as primary points of contact for informing employees of foreign
allowances and differentials for which they are eligible and assisting them in preparing
their SF 1190, “Foreign Allowances Application, Grant, and Report,”4 and supporting
documentation. An SF 1190 is required to authorize all foreign allowances and
differentials except danger pay allowance and post hardship differential. Local HRO
personnel enter the SF 1190 information into the Defense Civilian Personnel Data System
(DCPDS)5 or forward it to the regional HRO.

The Army has eight regional HROs, Navy has seven regional HROs, and Air Force has
one regional HRO, which process foreign allowances and differentials. Additionally,
DFAS, Defense Logistics Agency, DOD Education Activity, and Washington
Headquarters Services have one regional HRO each. The DFAS, Defense Logistics
Agency, and Washington Headquarters Services regional HROs also process foreign
allowances and differentials for other Defense organizations.

The regional HROs enter the SF 1190 information into DCPDS. DCPDS electronically
transfers the SF 1190 information to DFAS Civilian Pay for payroll processing.
Alternatively, the regional HROs transfer SF 1190 and supporting documentation through
the remedy system, whereby they create a remedy ticket6 for DFAS Civilian Pay to
manually process foreign allowances and differentials. During March 2009, the Civilian
Personnel Management Service instructed the regional HROs to discontinue using
remedy tickets and enter the SF 1190 information in DCPDS.

DFAS Civilian Pay
DFAS Civilian Pay is responsible for ensuring that DOD civilian payroll is processed
accurately and promptly. Initially, DFAS processed DOD civilian payroll at three
locations: Charleston, South Carolina; Denver, Colorado; and Pensacola, Florida. From
March 2007 through March 2008, the civilian payroll offices were consolidated and
transferred to Cleveland, Ohio, and Indianapolis, Indiana.

Civilian Pay Processing of Foreign Allowances and Differentials
DFAS Civilian Pay uses the Defense Civilian Pay System (DCPS) to process biweekly
payroll. DCPS maintains pay entitlements, leave entitlements, deductions and


4
  SF 1190 includes the employee’s name, position, and pay grade; spouse and dependent information;
country and deployment dates; allowances and differentials types; and approving or authorizing officials’
signatures.
5
  DCPDS is the primary human resources information system maintained by the Civilian Personnel
Management Service that supports DOD civilian personnel operations.
6
  A remedy ticket is submitted to DFAS Civilian Pay to request assistance with problems that DOD
Component HROs cannot solve. The remedy system has templates that are used for everyday transactions
where hard copy documentation is not needed or if manual intervention by the Payroll office is needed.


                                                    2
withholdings, time and attendance, and other employee information. It also maintains
SF 1190 information electronically transferred from DCPDS. If DCPS does not identify
any errors in the data, DCPS electronically transfers the foreign allowances and
differentials to the DFAS Disbursing Office for payment.

DFAS Civilian Pay also receives scanned SF 1190 information on remedy tickets for
payroll technicians to process. DFAS payroll technicians review SF 1190s to ensure
proper approval and deployment dates, current personnel information, and that the DOD
civilian employee is not receiving duplicate foreign allowances and differentials. DFAS
payroll technicians then manually enter SF 1190 information in DCPS. A DFAS Civilian
Pay supervisor approves the foreign allowances and differentials and electronically
transfers them to the DFAS Disbursing Office for payment. During biweekly payroll,
DFAS Disbursing Operations, Cleveland, Ohio, disburses foreign allowances and
differentials payments to all DOD civilian employees supporting overseas contingency
operations.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses as they relate to the audit objective. The Office of the Deputy Under
Secretary of Defense for Civilian Personnel Policy (ODUSD[CPP]), Office of the Under
Secretary of Defense for Personnel and Readiness, did not provide uniform guidance to
the DOD Components’ HROs to accurately and consistently authorize foreign allowances
and differentials paid to DOD civilian employees supporting overseas contingency
operations. Additionally, the ODUSD(CPP) did not monitor DOD Components’ HROs
to ensure proper implementation and effectiveness of the DOD foreign allowances and
differentials program. Implementing Recommendations 1.a, 1.b, 1.c, and 2 will
strengthen policies and procedures to ensure DOD Components’ HROs properly
authorize and monitor foreign allowances and differentials and reduce improper
payments. We will provide a copy of the report to the senior official responsible for
internal controls in the Office of the Under Secretary of Defense for Personnel and
Readiness and DFAS.




                                            3
Finding. Authorization of Foreign
Allowances and Differentials
DOD Components’ HROs authorized inaccurate foreign allowances and differentials to a
projected 8,686 of 11,691 DOD civilian employees supporting overseas contingency
operations. This occurred because the ODUSD(CPP) did not provide uniform guidance
to the DOD Components’ HROs to accurately and consistently authorize foreign
allowances and differentials. In addition, the ODUSD(CPP) did not monitor DOD
Components’ HROs to ensure proper implementation and effectiveness of the DOD
foreign allowances and differentials program. As a result, DFAS potentially made
improper foreign allowances and differentials payments totaling a projected $57.7 million
to DOD civilian employees supporting overseas contingency operations.

Accuracy of Authorization
DOD Components’ HROs authorized inaccurate foreign allowances and differentials to a
projected 8,686 of 11,691 DOD civilian employees supporting overseas contingency
operations. Specifically, DOD Components’ HROs authorized inaccurate danger pay
allowances for foreign locations. DSSR, chapter 650, “Danger Pay Allowance,”
July 9, 2006, allows DOD civilian employees to receive danger pay allowance for the full
day when they are in a danger pay location for 4 hours or more. However, we identified
several instances where DOD civilian employees received danger pay allowances for
dates on which they were not at the specified location. For example, a DOD civilian
employee was in Kuwait for 2 days before arriving in Iraq. The DOD civilian employee
was authorized the Iraq danger pay allowance rate of 35 percent while in Kuwait, which
has a danger pay allowance rate of 15 percent. Additionally, DOD Components’ HROs
authorized inaccurate danger pay allowances for days DOD civilian employees were not
in danger pay locations. For example, a DOD civilian employee traveled to the United
States for 30 days but continued to be incorrectly authorized a total of $3,857 in danger
pay allowance for Iraq. This employee should not have been authorized a danger pay
allowance for those 30 days in the United States.

DOD Components’ HROs also authorized inaccurate post hardship differentials to DOD
civilian employees. DSSR, chapter 540, “Hardship Differential on Detail From the
United States or Other Posts,” July 9, 2006, allows DOD civilian employees to become
eligible for the post hardship differential on the 43rd consecutive day at a post-hardship-
differential location unless they are in Afghanistan or Iraq, where they can receive this
differential from the first day. However, we identified numerous instances where DOD
civilian employees were authorized inaccurate post hardship differentials during their
first 42 days in a post-hardship-differential location other than Afghanistan and Iraq. For
example, a DOD civilian employee entered Ankara, Turkey, on October 15, 2007. The
employee was incorrectly authorized a total of $454 in post hardship differentials by the
employee’s DOD Component HRO starting the first day of the assignment, even though
he was not entitled to receive the differential until November 26, 2007. Additionally,
DOD Components’ HROs incorrectly authorized multiple post hardship differentials to
DOD civilian employees who were not in post-hardship-differential locations. For


                                             4
example, during FY 2007, one civilian employee was incorrectly authorized a total of
$19,228 in post hardship differentials while in Germany. The DSSR does not authorize
the post hardship differential for Germany.

Documentation for Foreign Allowances and Differentials
DOD Components’ HROs incorrectly authorized foreign allowances and differentials
without SF 1190s or supporting documentation. DSSR, chapter 73, “Report Forms,”
May 1, 2005, requires an SF 1190 to authorize payments of all foreign allowances and
differentials except danger pay allowance and post hardship differential. However,
numerous DOD civilian employees did not have an SF 1190 or supporting documentation
to receive foreign allowances and differentials. For example, a DOD civilian employee
was authorized a total of $28,627 in living quarters allowance during FYs 2007 and 2008,
but the DOD Components’ HROs could not provide an authorizing SF 1190 or
supporting documentation. DOD Components’ HROs also incorrectly authorized foreign
allowances and differentials with incomplete SF 1190s. DSSR, chapter 77, “Use of
SF 1190, Foreign Allowances Application, Grant, and Report,” July 9, 2006, requires
DOD Components to complete the entire SF 1190. DOD Components must complete all
boxes on the form and indicate the nonapplicable sections. Some DOD Components’
HROs authorized foreign allowances and differentials with SF 1190s that did not identify
the employee’s position and pay grade, country, deployment dates, allowances and
differentials types, and approving or authorizing official signatures.

Guidance for Authorization
The ODUSD(CPP) did not provide uniform guidance to the DOD Components’ HROs to
accurately and consistently authorize foreign allowances and differentials. DOD
Instruction 1400.25, volume 100, “General Provisions,” April 13, 2009,7 requires the
ODUSD(CPP) to develop and issue uniform DOD civilian personnel policies and
procedures. Instead, the ODUSD(CPP) delegated the ability to develop and implement
procedures for processing foreign allowances and differentials to DOD Components.
The ODUSD(CPP) instructed DOD Components to follow the DSSR when developing
their guidance. However, DOD Components established different guidance for
processing foreign allowances and differentials. DFAS and Washington Headquarters
Services drafted formal policies that addressed danger pay allowances and post hardship
differentials.8 However, their policies did not address any other foreign allowances and
differentials and were not specific enough to achieve uniform processing of all foreign
allowances and differentials. The Army developed a formal policy on living quarters
allowance and two Web sites that provided details for processing all foreign allowances




7
  DOD Instruction 1400.25, volume 100, was issued on December 3, 1996. DOD administratively reissued
this instruction on April 13, 2009.
8
  The DFAS policy is contained in HR Instruction Number 09-05, “Civilian Expeditionary Workforce,”
August 25, 2009. The Washington Headquarters Services policy is contained in Memorandum for
Administrative Officers, “Processing Danger Pay for Civilian Employees Serving in Certain Overseas
Areas,” August 11, 2006.


                                                 5
and differentials.9 The Air Force, Defense Logistics Agency, and DOD Education
Activity did not establish any policies and relied on the DSSR. The Navy did not provide
any policies.

According to an ODUSD(CPP) official, discrepancies occurred because DOD
Components’ HROs did not have a consistent procedure to process foreign allowances
and differentials. In May 2009, the ODUSD(CPP) provided informal DOD guidance,
which detailed processing instructions for all foreign allowances and differentials. The
guidance aligned with rules in the DSSR and incorporated DOD Components’ HROs’
best practices to streamline the processing of foreign allowances and differentials. The
informal DOD guidance also included the use of a foreign location record, which tracked
each employee’s daily location. The foreign location record was a good way to ensure
that DOD Components’ HROs properly applied foreign allowance and differential rates
when employees traveled to multiple countries. The ODUSD(CPP) should finalize and
issue this informal DOD guidance to provide uniform DOD-wide policies and procedures
to accurately and consistently authorize foreign allowances and differentials. In addition,
because of the inconsistent authorization of foreign allowances and differentials, the
ODUSD(CPP) should direct the DOD Components’ HROs to review all foreign
allowances and differentials paid since FY 2007, to identify inaccuracies, which they
should refer to DFAS for correction.

The ODUSD(CPP) also did not monitor DOD Components’ HROs to ensure proper
implementation and effectiveness of the DOD foreign allowances and differentials
program, as required by DOD Instruction 1400.25, volume 100. According to a
ODUSD(CPP) official, the Office of the Under Secretary of Defense for Personnel and
Readiness periodically surveyed civilians in foreign locations about pay and
communicated issues to the in-theater HRO to fix problem trends. The ODUSD(CPP)
could improve monitoring of DOD Components’ HROs authorization of foreign
allowances and differentials through periodic quality assurance reviews. Quality
assurance reviews would ensure that DOD Components’ HROs accurately and
consistently authorized foreign allowances and differentials and would reduce improper
payments.

Foreign Allowance and Differential Payments
DFAS potentially made improper foreign allowance and differential payments totaling a
projected $57.7 million to DOD civilian employees supporting overseas contingency
operations. DFAS paid foreign allowances and differentials based on inaccurate SF
1190s and supporting documentation provided by DOD Components’ HROs. As a
result, DFAS made overpayments and underpayments to DOD civilian employees.
Public Law 107-300, “Improper Payments Information Act of 2002,” considers payments
that should not have been made or were made in an incorrect amount to be improper.


9
 The Army formal policy on living quarters allowance is AE Regulation 690-500.592, “Civilian Personnel
Living Quarters Allowance,” November 18, 2005. The two Army Web sites are
http://cpolrhp.belvoir.army.mil/ncr/FunctionalAreas/NCCPOC/customersupport/ForeignEntitlements.htm
and http://cpolrhp.belvoir.army.mil/eur/overseas/OA_Info.htm.


                                                   6
DOD Regulation 7000.14-R, “DOD Financial Management Regulation” (DOD FMR),
volume 8, chapter 1, requires DFAS Civilian Pay to ensure that foreign allowances and
differentials payments are accurate. It also requires DFAS Civilian Pay to promptly
investigate improper payments and take appropriate action to correct deficiencies. DFAS
should take appropriate corrective action to reimburse or recover improper foreign
allowances and differentials payments identified by the ODUSD(CPP) and DOD
Components’ HROs.

Recommendations, Management Comments,
and Our Response
1. We recommend that the Deputy Under Secretary of Defense for Civilian
Personnel Policy, Office of the Under Secretary of Defense for Personnel and
Readiness:

      a. Finalize and issue uniform DOD-wide policies and procedures to
accurately and consistently authorize foreign allowances and differentials.

       b. Direct the DOD Components’ Human Resources Offices to review all
foreign allowances and differentials paid since FY 2007, to identify inaccuracies and
provide corrected authorizations to the Defense Finance and Accounting Service for
pay adjustments, as appropriate.

       c. Conduct periodic quality assurance reviews, to ensure that the DOD
Components’ Human Resources Offices are accurately and consistently authorizing
foreign allowances and differentials.

Management Comments Required
The Deputy Under Secretary of Defense for Civilian Personnel Policy, Office of the
Under Secretary of Defense for Personnel and Readiness, did not respond to the draft
report. We request that the Deputy Under Secretary of Defense for Civilian Personnel
Policy provide comments on the final report.

2. We recommend that the Director, Defense Finance and Accounting Service, take
appropriate corrective action to reimburse or recover improper foreign allowances
and differentials payments identified by the Office of the Deputy Under Secretary of
Defense for Civilian Personnel Policy and DOD Components’ Human Resources
Offices.

Defense Finance and Accounting Service Comments
The Director, Standards and Compliance, agreed and stated that DFAS will take
appropriate corrective actions when the OUSD(CPP) and DOD Components’ HROs
identify the improper accounts. Additionally, the Director, DFAS Indianapolis, stated
that currently there are two employees in Iraq and Afghanistan, respectively, detailed for
civilian pay. DFAS Civilian Pay also implemented a new civilian pay processing team,
which specializes in deployed personnel pay issues, to include all foreign entitlements


                                             7
and aggregate pay limitation issues. The new civilian pay processing team provides face-
to-face customer service. It also resolves all payroll inquiries between the deployed
personnel’s home duty station timekeeper, customer service representative, and HRO.
DFAS also is working to implement the use of an electronic SF 1190.

Our Response
The comments of the Director, Standards and Compliance, are responsive, and the
actions meet the intent of the recommendation.

Other Matters of Interest
DOD FMR, volume 8, chapter 3, “Pay Administration,” did not include proper maximum
danger pay allowance and post hardship differential percentages because the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer (OUSD[C]/CFO) did
not implement current DSSR guidance. According to a OUSD(C)/CFO official, the DOD
FMR has not been updated to reflect the current DSSR guidance because this DOD FMR
section is always changing. DOD FMR requires that danger pay allowance may not
exceed 25 percent of the employee’s basic pay.10 When both an allowance and a
differential have been authorized, the total pay must not exceed 50 percent of the
employee’s basic pay. However, the DSSR authorizes maximum percentages for
Afghanistan and Iraq that are greater than those authorized by the DOD FMR.
Specifically, DSSR, chapter 650, “Danger Pay Allowance,” July 9, 2006, authorizes an
Afghanistan and Iraq danger pay allowance not to exceed 35 percent of the employee’s
basic pay. Additionally, DSSR, chapter 500, “Post Hardship Differential,” July 9, 2006,
authorizes an Afghanistan and Iraq post hardship differential not to exceed 35 percent of
the employee’s basic pay. The DSSR does not impose any maximum percentage when
both a danger pay allowance and post hardship differential have been authorized. For
example, if an employee was located in Iraq and their DOD Component HRO followed
the DOD FMR policy, they would have received 25 percent danger pay allowance and
25 percent post hardship differential, for a total of 50 percent. However, if their DOD
Component HRO followed the DSSR, they would have received 35 percent danger pay
allowance and 35 percent post hardship differential, for a total of 70 percent. DOD
Components’ HROs should use the current DSSR guidance to authorize danger pay
allowance and post hardship differential payments. Although no instances of DOD
civilian employees being incorrectly paid as a result of the DOD Components’ HROs
following the DOD FMR were identified in our sample, updating the DOD FMR to refer
to the DSSR would reduce the risk of this occurring in the future.

Management Actions
DOD FMR, volume 8, chapter 3, was updated and published in June 2010. The updated
information reflects the DSSR and allows for a danger pay allowance of up to 35 percent
and a post hardship differential of up to 35 percent. Additionally, the update allows a
combined allowance and differential total of up to 70 percent.



10
     Basic pay is the rate of pay before any deductions.


                                                           8
Appendix A. Scope and Methodology
We conducted this performance audit from April 2009 through May 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine that eligible DOD civilian employees supporting overseas contingency
operations properly received authorized allowances and differentials, we evaluated the
foreign allowances and differentials process. We contacted DFAS to obtain an audit
universe of allowances and differentials paid to DOD civilian employees supporting
overseas contingency operations. According to DFAS officials, DCPS could not provide
a complete listing of DOD civilian employees who received foreign allowances and
differentials payments while supporting overseas contingency operations. DFAS officials
contacted the Civilian Personnel Management Service, to identify this listing. According
to Civilian Personnel Management Service officials, DCPDS does not include a code to
identify all DOD civilian employees supporting overseas contingency operations. After
discussions with DFAS and the Civilian Personnel Management Service, a DFAS official
agreed that the best way to identify a complete listing of DOD civilian employees
supporting overseas contingency operations was to extract all DOD civilian employees
that received either a danger pay allowance or a post hardship differential from DCPS.
We requested that DFAS extract these employees from DCPS.

After three attempts and 3 months, DFAS extracted 11,820 DOD civilian employees who
had received either a danger pay allowance or a post hardship differential from DCPS
during 2007 and 2008. Some of these DOD civilian employees received additional
foreign allowances and differentials, such as difficult-to-staff incentives, foreign transfer
allowance, living quarters allowance, post allowance, separate maintenance allowance,
and temporary quarters subsistence allowance payments. Some foreign allowances and
differentials were for other foreign locations not supporting overseas contingency
operations. These 11,820 DOD civilian employees received over $252 million in foreign
allowances and differentials.

Some of the 11,820 DOD civilian employees received foreign allowances and
differentials payments that were not during FYs 2007 and 2008. Using the Audit
Command Language, we removed foreign allowances and differentials payments that
were not during FYs 2007 and 2008, which reduced our universe by 129 DOD civilian
employees. Therefore, the new universe identified was 11,691 DOD civilian employees
who received over $247 million in foreign allowances and differentials payments. After
further reviewing the information provided by DFAS, we also identified that the
extracted DCPS information included duplicate foreign allowances and differentials
entries and misidentified negative foreign allowance and differential entries as positives.
We estimated that the 11,691 DOD civilian employees received over $212.9 million in
foreign allowances and differentials.


                                              9
We selected a statistical sample of 342 DOD civilian employees who were supporting
contingency operations, to determine whether eligible employees properly received
authorized allowances and differentials during FYs 2007 and 2008. See Appendix C for
the statistical sample plan. We requested authorizing documentation for the sample from
the DOD Components’ HROs. After 2 months, DOD Components’ HROs provided
some of the requested SF 1190s and supporting documentation. In many instances, we
did not receive any documentation, or the documentation was incomplete. We reviewed
SF 1190s and supporting documentation provided to us. We recalculated the
authorization amount using the DSSR and documentation provided by the DOD
Components’ HROs. We then compared the authorization amount to DCPS
documentation, to identify potentially improper payments. Each DOD civilian employee
could have been paid up to eight foreign allowances and differentials. We identified the
potential improper amount of each type of allowance and differential and took a net value
of the totals. We did not include potentially improper payments of less than $100. Two
examples from our analysis follow.

        Employee A. Employee A received four types of foreign allowances and
         differentials. We received complete SF 1190s and supporting documentation
         from the employee’s DOD Component HRO. We calculated the amount of
         foreign allowances and differentials the employee was eligible for using the
         DSSR. We determined the employee was overpaid for two of the allowances and
         differentials and underpaid for the other two. The net value of the overpayments
         and underpayments was $1,524. Therefore, we identified that Employee A
         potentially had improper foreign allowance and differential payments of $1,524.
         See Table A-1.

       Table A-1. Foreign Allowance and Differential Payments for Employee A

            Type                      Amount Paid                Potential Over- or
                                                                  Underpayment

Danger pay                               $12,774                       $1,635
Post hardship differential                12,504                        1,675
Post allowance                             4,922                         (926)
Separate maintenance                      18,653                       (3,908)
allowance
 Total                                   $48,853                       ($1,524)




                                            10
        Employee B. Employee B received three types of allowances and differentials,
         totaling $75,242. We did not receive any SF 1190s or supporting documentation
         from the employee’s DOD Component HRO. Therefore, we could not calculate
         the amount of foreign allowances and differentials the employee was eligible for
         using the DSSR and had to count the entire amount as potentially improper. See
         Table A-2.

       Table A-2. Foreign Allowance and Differential Payments for Employee B

            Type                           Paid                    Potential Over- or
                                                                    Underpayment
Post hardship differential                $22,030                       $22,030
Living quarters allowance                  42,408                         42,408
Post allowance                             10,804                         10,804
 Total                                    $75,242                        $75,242

To accomplish the audit objectives, we performed the following tasks.

        We met with the OUSD(C)/CFO officials to obtain applicable DOD regulations
         for maximum danger pay allowance and post hardship differential percentages.

        We met with officials from the ODUSD(CPP), Office of the Under Secretary of
         Defense for Personnel and Readiness, to obtain allowances and differentials
         policy. Specifically, we reviewed policy memoranda, informal authorization
         guidance, and the ODUSD(CPP) annual statement of assurance.

        We met with officials from the Civilian Personnel Management Service to gain an
         understanding of the process for foreign allowances and differentials and to obtain
         points of contact for DOD Components.

        We contacted the Army, Navy, Air Force, DOD Office of the Inspector General,
         Defense Logistics Agency, DFAS, DOD Education Activity, and Washington
         Headquarters Services, to determine authorization procedures for processing
         foreign allowances and differentials paid to DOD civilian employees supporting
         overseas contingency operations. We also obtained standard operating procedures
         and requested SF 1190 and supporting documentation. Our Civilian Personnel
         Management Service point of contact communicated our request for SF 1190 and
         supporting documentation to seven DOD Components. The DOD Components
         canvassed a large number of local HROs, as well as their regional HROs, to
         provide the documentation because the employees were processed at different
         locations around the world. We directly contacted the DOD Office of the
         Inspector General to obtain supporting documentation. We reviewed all SF 1190
         and supporting documentation that was provided by the DOD Components.



                                             11
      We contacted officials from DFAS Pensacola, to obtain an audit universe of DOD
       civilian employees who received danger pay allowance and post hardship
       differential payments while supporting overseas contingency operations during
       FYs 2007 and 2008.

      We met with officials from DFAS Civilian Pay, Cleveland, Ohio, and
       Indianapolis, Indiana, to determine the foreign allowances and differentials
       payment process. Specifically, we reviewed payroll processes, payroll standard
       operating procedures, payment documentation, and remedy tickets.

      We met with officials from DFAS Disbursing Operations, Cleveland, Ohio, to
       determine the disbursement process for foreign allowances and differentials
       payments.

Use of Computer-Processed Data
To perform this audit, we used data from DCPS. DCPS is the official civilian payroll
system for DOD. DOD Office of the Inspector General auditors assessed DCPS general
and application controls. They obtained reasonable assurance that DCPS controls were
adequate. We also assessed reliability by reviewing existing information about DCPS
and interviewing knowledgeable agency officials. Additionally, we assessed data
reliability by comparing SF 1190, foreign location records, lease agreements, master pay
history records, and other supporting documentation and recalculating foreign allowances
and differentials paid to DOD civilian employees. Based on this work, we concluded that
the data were sufficiently reliable and accurately reflected foreign allowances and
differentials for the purpose of our review.

Use of Technical Assistance
The DOD Office of the Inspector General Quantitative Methods and Analysis Division
assisted with the project sample selection and projection of results.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the U.S. Army
Audit Agency have issued two reports related to allowances and differentials paid to
DOD employees supporting overseas contingency operations. Unrestricted Government
Accountability Office reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted Army reports can be accessed from a .mil domain over the Internet at
https://www.aaa.army.mil/.

GAO
GAO Report No. GAO 09-562, “Actions Needed to Better Track and Provide Timely and
Accurate Compensation and Medical Benefits to Deployed Federal Civilians,”
June 26, 2009




                                          12
U.S. Army Audit Agency
U.S. Army Audit Agency Report No. A-2007-0184-FFM, “Civilian Pay in Support of
Operation Enduring Freedom and Operation Iraqi Freedom,” August 15, 2007




                                       13
Appendix B. Definitions of Foreign
Allowances and Differentials
Danger Pay Allowance provides U.S. Government civilian employees additional
compensation above basic pay for service in foreign locations where conditions of civil
insurrection, civil war, terrorism, or wartime-type conditions exist.

Difficult-to-Staff Incentive Differential is paid to an employee assigned to a location
with especially adverse conditions.

Foreign Transfer Allowance is for additional expenses necessary to transfer an
employee to a foreign location.

Living Quarters Allowance provides the annual cost of living quarters for the employee
and his or her family. It covers rent, heat, light, fuel, gas, electricity, water, and other
costs required by law.

Post Allowance is granted to an employee officially stationed in a foreign location where
the cost of living is substantially higher than Washington, D.C. The post allowance
permits employees to spend the same portion of their basic compensation for current
living without incurring a reduction in living standards.

Post Hardship Differential compensates employees in foreign locations for substantially
different environmental conditions.

Separate Maintenance Allowance provides an employee additional pay to cover
expenses for maintaining eligible family members at a different foreign location
assignment. There are three types of separate maintenance allowances: involuntary,
voluntary, and transitional.

Temporary Quarters Subsistence Allowance provides for the average accommodations
in a hotel or other living quarters in foreign locations. The employee may also be
reimbursed for meals and laundry expenses.




                                             14
Appendix C. Statistical Sample
Population. The population consisted of 11,691 DOD civilian employees who received
foreign allowances and differentials during FYs 2007 and 2008.

Sample Plan. The DOD Office of the Inspector General Quantitative Methods and
Analysis Division used a stratified sampling design for this project. They stratified the
population into six strata and selected a random sample of 342 DOD civilian employees
for review. See Table C-1 for our sampling plan.

                               Table C-1. Sampling Plan
         Stratum                   Population Size                  Sample Size
>150K                                       53                          53
>100K–<150K                                113                         49
>50K–<100K                               1,013                         65
>25K–<50K                                2,235                         80
>10K–<25K                                3,895                         65
<10K                                     4,382                         30
 Total                                 11,691                          342

Analysis and Interpretation. Through an analysis of each employee in the sample, we
identified 285 individuals with potential improper payments totaling $3.7 million. Table
C-2 provides the Quantitative Methods and Analysis Division projection of these
amounts across the population at a 90 percent confidence level.

  Table C-2. Projection of Foreign Allowances and Differentials With Potentially
                               Improper Payments
                              Number of Civilian         Potentially Improper
                                   Employees                   Payments
Upper bound                           9,564                   $66.2 million
Point estimate                        8,686                    57.7 million
Lower bound                           7,809                    49.2 million




                                            15
16
Defense Finance and Accounting Service Comments




                                G file




                              17
Click to add JPEG file




               18
Click to add JPEG file




               19
Click to add JPEG file




               20
